XAVIER BECERRA
Attorney General

State of California
DEPARTMENT OF JUSTICE
300 SOUTH SPRING STREET, SUITE 1702
LOS ANGELES, CA 90013

Public: (213) 269-6000
Telephone: (213) 269-6168
Facsimile: (916) 731-2122
E-Mail: Idan.Ivri@doj.ca.gov

October 21, 2020
Via Electronic Filing System
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
RE:

James Michael Fayed v. California
No. 20-244
Second Request for Extension of Time to File Brief in Opposition to Petition for Writ of
Certiorari

Dear Mr. Harris:
I represent the respondent State of California in the above-entitled case. The petition for
writ of certiorari was filed on August 26, 2020. My first motion for an extension of time to file
the brief in opposition to the petition was granted on September 14, 2020, and the brief is
currently due on October 30, 2020. Pursuant to Rule 30.4, I respectfully request that the time for
filing that brief be extended by thirty-one days further, to Monday, November 30, 2020.
The additional time is required because the lead reviewer for the brief in opposition,
California Solicitor General Michael James Mongan, must complete work on pressing matters in
Lange v. California (No. 20-18), Trump, President of the United States, et al. v. Sierra Club, et
al. (No. 20-138), California v. Texas (No. 19-840), and Texas v. California (No. 19-1019),
before turning his attention to the instant case. An extension of time would allow Mr. Mongan to
focus on the other above-noted cases at this time.
On October 20, 2020, I conferred with Kelly Christine Quinn, counsel for petitioner, and
she stated that petitioner has no objection to this motion.
///
///
///

October 21, 2020
Page 2

Accordingly, I request that the due date for the brief in opposition to the petition for writ
of certiorari be extended to November 30, 2020.
Sincerely,

/s/ Idan Ivri
IDAN IVRI
Deputy Attorney General
For

XAVIER BECERRA
Attorney General

cc: Kelly Christine Quinn, Counsel for Petitioner

